«p\-\2b
No.
SUPREME COURT OF THE UNITED STATES
Case: Lucio A. Barroga V. Board Of Admiistration
California Public Employees
Retirement System (PERS)

PETITION FOR WRIT OF CERTIORARI
.

IN THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

LUCIO A. BARROGA
P.O. BOX 2516
LONG BEACH, CA 90801
TEL 562-560-7863

RECEIVED
JUL 3 0 2021
- SUplREMHfmi

SUPREME COURT OF THE UNITED STATES
QUESTION
A) DID the refusal or denial of the MEMORANDUM of Feb. 23, 2021 and the
ORDER of May 26, 2021 to interpret the issues of questions of laws, ISSUES I, II,
III, IV and V in the p.2-5 MOTION FOR RELIEF of October 22, 2019, February 8,
2020 and the p.2-5 PETITION FOR REHEARING of March 5, 2021, regarding
retirement benefits with the California Public Employees' Retirement System,
PERS, "departed from accepted and usual course of judicial proceedings" U.S.
Supreme Court Rule 10, in violation of laws?
a) 5 U.S. Code § 706.Scope of review
To the extent necessary to decision and when presented, the reviewing
court shall decide all relevant questions of law, interpret constitutional
and statutory provisions,. . (Emphasis added.)
b) Fifth Amendment: No person shall be.. deprived of life, liberty or
property, without due process of law
c) Code of Conduct for U,S. Judges
Canon 2 (A) Respect for Law. A judge should respect and comply with the
law..
Date: July

2021

Respectfully submitted:
[LAjUS A JSC
Lucio A.Barroga

PARTIES OF PROCEEDING
LUCIO A. BARROGA, Plaintiff-Appellant
P.O. Box 2516
Long Beach, CA 90801
Tel 562-560-7863

Board of Administration, Defendant-Appellee
California Public Employees' Retirement System, PERS
RICHARD H. KOPPES, Deputy Executive Officer and General Counsel
Defendant's Attorneys
ROB BONTA, Attorney General of California
CHERYL L. FEINER, Senior Assistant Attorney General
GREGORY D. BROWN, Supervising Deputy Attorney General
DARRELL W. SPENCE
BRENDA A. RAY, Deputy Attorney General

1300 I St. Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550

Tel 916-210-7806

TABLE OF CONTENTS
TABLE OF CITED AUTHORITIES
CITATION OF OPINIONS AND ORDERS ENTERED IN THE CASE
BASIS OF JURISDICTION
CONSTITUTIONAL PROVISIONS AND STATUTES, VIRBATIM
FACTS
REASONS FOR ALLOWANCE OF THE WRIT
APPENDIX

TABLE OF CITED AUTHORITIES

Barroga v. PERS

FROM: May 22, 2019 (19 CV 00921) COMPLAINT FOR DECLARATORY
RELIEF UNDER CAL CODE OF CIV. PROC. SEC. 1062 ON NEW OR SAME
ACTION BASED ON THE SAME FACTS WHICH OVERCOME RES JUDICATA
p.1,7 Statute of limitation: California Code of Civ. Code Sec. 20164
Duration of obligation; limitation of actions
(b)(2) In cases where the system owes money to a member or
beneficiary, the period of limitation shall not apply.
p. 3 California Code of Civ. Proc. 657
Relief available on motion for new trial, causes:
4. Newly discovered evidence, material for the party making the
application, which he could not with reasonable diligence, have
discovered and produced at the trial.
6. Insufficiency of evidence to justify the . .decision, or the decision
is against the law.
ISSUES OR CAUSES OF ACTION
p.4 California (Cal) Gov't Code Sec. 20340 Condition of cessation
A person ceases to be a member:
(b) if he or she is paid his or her "normal contributions".
The employer's contributions in my behalf is not paid and remain in
deposit with PERS.
p.4 ISSUE I: ARE THE EMPLOYERS' CONTRIBUTIONS TO THE RETIREMENT
FUND ON BEHALF OF MEMBERS 'NORMAL CONTRIBUTIONS".. ?
p.4 Cal Gov't Code Sec. 20691. Payment of member normal
contributions by contracting agencies or school employer.
Notwithstanding any other provision of law, a contracting agency or
school employer may pay all or a portion of the normal
contributions required to be paid by a member. The payment shall
be reported simply as normal contributions and shall be credited to
A
member accounts.

I

-

p.8 Cal Gov't Code Sec. 20053 Normal Contributions
(2nd Part) "Normal contributions" also include contributions
required to be paid by a member that are in fact paid on behalf of
member by an employer..
The employer's contributions are explicit "normal contributions",
therefore I am still a member of PERS.
p.5 ISSUES II: IS PERS'S ALTERNATIVE OFFER FOR THE WITHDRAWAL OF
THE ACCUMULATED MEMBER CONTRIBUTIONS TO DEPRIVE PLAINTIFF OF
LIFETIME RETIREMENT ALLOWANCE AFTER PLAINTIFF HAD QUALIFIED FOR
RETIREMENT AFTER REACHING 50 YEARS OLD, A VIOLATION OF CAL GOV'T
CODE SEC. 21259?
p.5 Cal Gov't Code Sec. 21259. Nonforfeiture after qualification for
retirement.
Subject to compliance with this part, after a member has qualified
as to age and service for retirement for service, nothing shall
deprive him or her of the right to retirement allowance as
determined under this part.
p.5 ISSUES III: IS PERS'S DENIAL FOR CONSIDERING THE WITHDRAWN
MEMBER CONTRIBUTIONS AS LOAN A VIOLATION OF PERS'S LOAN LAWS
WHICH ALLOW WITHDRAWALS AS LOAN? OR DISCRIMINATORY?
p.5-6 Cal Gov't Code Sec. 20750. Redeposit of withdrawals, interest.
. ... member may file an election with the board to redeposit in
the retirement fund in lump sum or by installment payment (1) an
amount equal to the accumulated contributions... withdrawn, and
(2) an amount equal to the interest.., and (3) if he or she elects to
redeposit in other than one sum, interest on the unpaid balance at
date of election to redeposit.
p.6 Cal Gov't Code Sec. 20202 Natural disaster relief loan.
Cal Gov't Code Sec. 20201 Secured home loan.
p.6 ISSUE IV: AMENDMENT 13, PROHIBITION OF SLAVERY IS VIOLATED.
PERS HAS DENIED PLAINTIFF RETIREMENT BENEFITS DERIVED FROM
EMPLOYER'S CONTRIBUTIONS TO THE RETIREMENT FUND ON MY BEHALF.

2-

p.6 Amendment 13, Section 1. Neither slavery nor involuntary
servitude shall exist within the United States..
(ISSUE V): California CONSTITUTION Article 3, Sec. 6(d) PREVAILS OVER

11th amendment immunity
p.2,10 California CONSTITUTION Article 3, Sec. 6(d):
Personal Right of Action and Jurisdiction of Courts.
Any person who is a resident of or doing business in the State of
California shall have standing to sue the State of California to
enforce this action.
p.6 Cal Gov't Code Sec. 20731. .retirement allowance.
After qualification of the member for retirement by reason of age..
the member shall be entitled to receive a retirement allowance
based upon the amount of member's accumulated contributions
and service... and on the employer's contributions held for the
member and calculated in the same manner as for the other
members.
p.7 RES JUDICATA DOES NOT APPLY UNDER DECLARATORY RELIEF LAW
p.7 Cal Code of Civ. Proc. Sec. 1062 Cumulative remedy
The remedies provided by this chapter are cumulative, and shall not
be construed as restricting any remedy, provisional or otherwise,
provided by law for the benefit of any party to such action, and no
judgment under this chapter shall preclude any party from obtaining
additional relief based upon the same facts.
p.7 Cal Code of Civil Proc. Sec. 657 Relief available on motion for
new trial, causes ..
4. Newly discovered evidence, material for the party making the
application which he could not, with reasonable diligence, have
discovered and produced at the trial.
6. Insufficiency of evidence to justify, .decision or the decision is
against law.
p.8 BEING CALLED A VEXATIOUS LITIGANT IS WRONG BECAUSE THE ISSUES
. .ARE... NEVER DETERMINED BY ANY COURT, VIOLATING VEXATIOUS
LITIGANT LAW

3

p.8 CAL Code of Civ. Proc. Sec. 391
(b) "Vexatious litigant" means a person who does any of the
following:
(2) After a litigation has been finally determined against the person,
repeatedly relitigates or attempts to relitigate, in propria persona,
either (i) the validity of the determination against the same
defendant.. as to whom the litigation was finally determined or (ii)
the cause of action, claim, controversy, or any of the issues of fact
or law, determined or concluded by the final determination against
the same defendant..
p.10 FRAP 60 GROUNDS FOR RELIEF
(b) Grounds for Relief from a Final Judgment, Order, or Proceeding.;
(2) newly discovered evidence that, with reasonable diligence, could
not have been discovered in time to move for a new trial
(4) the judgment is void;
(d) Other Powers to Grant Relief. This rule does not limit a court's
power to: (3) set aside a judgment for fraud on the court.
p.10 PLAINTIFF PERMITTED TO CONDUCT CASE PERSONALLY
p.10 28 USC Sec. 1654: In all courts of the United States the parties
may plead and conduct their own cases personally or by counsel as,
by the rules of such courts, respectively, are permitted to manage
and conduct causes therein.
p.ll Cal Code of Civ. Proc. 170 A judge has the duty to decide any
proceeding in which he or she is not disqualified.
p.12 Code Of Conduct For United States Judges
Canon 2: A judge should respect and comply with the law..
2) From: Aug.l, 2019 (19-CV 0921) OBJECTION TO DEFENDANT'S MOTION
TO DISMISS
p.7 28 US Code Sec. 1652 STATE LAWS AS RULES OF DECISION

1

p.9 CANON 2: B. Outside influence. A judge should not allow family,
social, political, financial, or other relationship to influence judicial
conduct or judgment.
3) From: Feb. 8, 2020 (19-17418) MOTION FOR RELIEF FROM ORDER OF
SEPT. 30, 2019
p.9 US Court of Appeals'ORDER of Apr. 25, 2018 for Magistrate Judge . .
Newman's violation of rendering judgment without authority:
(9th Cir. 1992) holding that absent consent, a federal magistrate
judge lacked authority to a post-judgment decision that has
dispositive effect..
p.ll FIFTH AMENDMENT: No person shall be. .deprived of..
property without due process of law.
4) From: June 11, 2020 (19-17418) OBJECTION TO APPELLEE'S BRIEF OF
MAY 29, 2020
p.7 CANON 3. (2) A judge should hear and decide matters assigned,
unless disqualified...
5) From: Mar 5, 2021 (19-17418) PETITION FOR REHEARING UNDER FRAP
40
p.1-2 5 U.S. Code 706 Scope of review
To the extent necessary to decision and when presented, the
reviewing court shall decide all relevant question of law, interpret
constitutional and statutory provisions, and determine the
meaning or applicability of the terms of an agency action. The
reviewing court shall
(2) hold unlawful and set aside
agency action, findings, and conclusions found to be (A) arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law;
(B) contrary to constitutional right, power, privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations or
short of statutory right:

5"

(D) without observance of procedure required by law;
In making the foregoing determination, the court shall review the
whole record or those parts of it cited by a party, and due account
shall be taken of the rule of prejudicial error. (Emphasis added).
p.6 CANON 3: CALIFORNIA CODE OF JUDICIAL ETHICS:
A judge shall hear and decide all matters assigned to the judge
except those in which he or she is disqualified.
Date: July £

2021

Respectfully submitted:
3l6&o)? Mrroga 0UY

6

r

CITATION OF REPORTS OF OPINIONS AND ORDERS

Barroga v. PES

Sept. 9, 2019 (19-CV-00921) FINDINGS AND RECOMMENDATIONS TO DISMISS .
.by Magistrate Judge Newman; (No. 4 on APPENDIX)
I p.3 Barroga's claims fail on the same ground as in the 2012 action.
II p.3 Barroga should be deemed a vexatious litigant, and pre-filing order
should be imposed.
p.15 RECOMMENDATIONS:
1. Defendant's Motion to Dismiss (ECF20) be GRANTED.
2. Defendant's Motion to Declare Plaintiff Vexatious be GRANTED IN PART
and DENIED IN PART;
3. Plaintiff be DECLARED a vexatious litigant; and
4. The Court ISSUE a pre-filing order. .
Note: The Findings and Recommendation did NOT decide and interpret the
ISSUES.
Answering: Sept. 20, 2019 (19 CV 00921) OBJECTION TO MAGISTRATE JUDGE
NEWMAN'S FINDINGS AND RECOMMENDATIONS (No. 5 on APPENDIX)
p.2 California Constitution Article 3, Sec. 6(d) That Provides Any Person
Who Is A Resident Of.. California Shall Have Standing To Sue The State Of
California .. Prevails Over 11th Amendment Immunitjy As Basis For The
Dismissal Of Order Of December 19, 2012.
P.4 Refusing To Determine And Interpret The Issues And Controversies
Before Charging Vexatious Litigant Is Plain Obstruction Of Justice.
p.5 Because the issues of facts and laws in the complaint were never
determined, there is no vexatious litigant.
Sept. 30, 2019 (19 CV 00921) ORDER, (No. 6 on APPENDIX)

/

p.2 1. The findings and recommendations . .are ADOPTED in full.
2. Defendant's Motion to Dismiss . .is GRANTED.
3. Defendant's Motion to Declare Plaintiff Vexatious . .is GRANTED in part
and DENIED in part.
4. Plaintiff is hereby DECLARED a vexatious litigant, and
5. The Court ISSUES a pre-filing order as described in Sec. II.D of the
Magistrate Judge's findings and recommendations, and
6. The Clerk of the Court is directed to CLOSE this case.
Answering: Oct. 22, 2019; Feb. 2, 2020 (19-17418) MOTION FOR RELIEF FROM
ORDER OF SEPT. 30, 2019. (No. 7 in APPENDIX)
p.l, 10 Because the ORDER of Sept. 30, 2019 adopted in full the and
Recommendations, therefore . the OBJECTIONS.. TO FINDINGS AND
RECOMMENDATIONS of Sept. 20, 2019 also answer the ORDER of Sept. 30.
p.ll PERS depriving me of benefits derived from the employer's
contributions,, .is violaion of Fifth Amendment:
. "No person shall be. .deprived . .of property, without due process of law."
p.11-12 Cal Code of Civil Proc. Sec. 391:
(2) After a litigation has been finally determined against the person,
repeatedly re-liigate . .against the same defendant..
p.ll.. the ISSUES I, II, III, IV and Calif Constitution Article 3, Sec. 6(d) were
never determined and interpreted by any court, therefore... the charge of
vexatious litigant is false and wrong.
Notice: The ORDER did NOT decide and interpret the ISSUES.
Feb. 23, 2021 (19-17418) MEMORANDUM, AFFIRMED. (No. 10 on APPENDIX)
p.2 (a)The district court.. dismissed . .action on the basis of claim
preclusion because the action involved the same primary rights raised in
prior administrative proceeding on state court case that resulted in a final
judgment..

p.2 The district court did not abuse its discretion by declaring Barroga a
vexatious litigant..
Answering: Mar. 5, 2021 (19-17418) PETITION FOR REHEARING UNDER FRAP 40
(No. lion APPENDIX)
p.l 5 U.S. Code 706 Scope of review
... the reviewing court shall decide all relevant questions of law,
interpret constitutional and statutory provisions. .(The MEMORANDUM
did comply.)
p.2 Judicial Notice: The panel judges did not address to "decide all relevant
questions of law, interpret constitutional and statutory provisions' as
mandated by 5 U.S. Code Sec. 706.
p.8 Code Of Conduct For U.S. Judges
CANON 2. (A) Respect for Law. A judge should respect and comply with the
law.
p.5 The MEMORANDUM regarding claim preclusion, overlooked . .that
prior administrative judge and state judges were wrong in deciding that I
ceased to be a member when I withdrew the . .member contributions....
See wrong arguments of PERS, which was the basis of prior court dismissal
orders,. .letter dated Apr. 18,1996 by Richard H. Koppes, Deputy Executive
Officer and General Counsel.
Notice: In p.3 ISSUE i, I am still a member of PERS because the employers'
contributions on my behalf remain with PERS and are "normal
contributions." Also, please, see ISSUE I on p 1-2 TABLE OF AUTHORITIES.
p. 7-8. The MEMORANDUM overlooked the fact that plaintiff is not a
vexatious litigant under. .Cal Code of Civ. Proc. Sec.391.
The . .litigant law requires that issues must be first addressed and finally
determined, but judges refused to interpret the laws in dispute, so there is
no basis for charge of vexatious litigant.
May 26, 2021 (19-17418) ORDER by panel judges denying rehearing. (No. 12 on
APPENDIX)
Date:

A * v/>tVY\
2- L;2iD~L\

oa.

Barroga

'T'-

BASIS OF JURISDICTION
Barroga v. PERS

Dates:
February 23, 2021 MEMORANDUM of Circuit Judges.

May 26, 2021 ORDER of Circuit Judges, denying petition for rehearing.
July 2, 2021 Date of letter from clerk requiring correction of petition for writ.
In violation of laws, the MEMORANDUM of February 23, 2021 and the ORDER
of May 26, 2021 had "departed from the accepted and usual course of judicial
proceedings", U.S. Supreme Court Rule 10, for not interpreting issues of laws,
ISSUES I, II, III, IV, & V California Constitution Article 3, Sec. 6(d) on the p.2-5
MOTION FOR RELIEF FROM THE ORDER OF SEPT. 30, 2019 of October 22, 2019,
February 8, 2020 and on the p.2-5 PETITION FOR REHEARING UNDER FRAP 40 of
March 5, 2021 on my complaint with the California Public Employees' Retirement
System, PERS regarding denial of right to retirement benefits, in violation of laws:

a) 5 U.S. Code § 706.Scope of review
To the extent necessary to decision and when presented, the reviewing
court shall decide all relevant questions of law, interpret constitutional
and statutory provisions,. . (Emphasis added.)
b) FIFTH AMENDMENT: No person shall... be deprived of life, liberty or
property, without due process of law..
c) Code of Conduct for U.S. Judges
Canon 2 (A) Respect for Law. A judge should respect and comply with the
law.
Date: July

2021

Respectfully submitted:

rA

CONSTITUTIONS AND STATUTES
Statute of limitation: California Code of Civ. Code Sec. 20164 Duration of
obligation; limitation of actions
(b)(2) In cases where the system owes money to a member or beneficiary,
the period of limitation shall not apply.
California Code of Civ. Proc. 657
Relief available on motion for new trial, causes:
4. Newly discovered evidence, material for the party making the
application, which he could not with reasonable diligence, have discovered
and produced at the trial.
6. Insufficiency of evidence to justify the . .decision, or the decision is
against the law.
California (Cal) Gov't Code Sec. 20340 Condition of cessation
A person ceases to be a member:
(b) if he or she is paid his or her "normal contributions".
Cal Gov't Code Sec. 20691. Payment of member normal contributions by
contracting agencies or school employer. Notwithstanding any other
provision of law, a contracting agency or school employer may pay all or a
portion of the normal contributions required to be paid by a member. The
payment shall be reported simply as normal contributions and shall be
credited to member accounts.
Cal Gov't Code Sec. 20053 Normal Contributions
(2nd Part) "Normal contributions" also include contributions required to be
paid by a member that are in fact paid on behalf of member by an employer.

Cal Gov't Code Sec. 21259. Nonforfeiture after qualification for retirement.
Subject to compliance with this part, after a member has qualified as to age
and service for retirement for service, nothing shall deprive him or her of
the right to retirement allowance as determined under this part.
Cal Gov't Code Sec. 20750. Redeposit of withdrawals, interest.
. ... member may file an election with the board to redeposit in the

i

retirement fund in lump sum or by installment payment (1) an amount equal
to the accumulated contributions... withdrawn, and (2) an amount equal to
the interest.., and (3) if he or she elects to redeposit in other than one
sum, interest on the unpaid balance at date of election to redeposit.
Cal Gov't Code Sec. 20202 Natural disaster relief loan.
Cal Gov't Code Sec. 20201 Secured home loan.
Amendment 13, Section 1. Neither slavery nor involuntary servitude shall
exist within the United States..
Personal
California CONSTITUTION Article 3, Sec. 6(d):
Any person
Right of Action and Jurisdiction of Courts.
who is a resident of or doing business in the State of California shall have
standing to sue the State of California to enforce this action.
Cal Gov't Code Sec. 20731. .retirement allowance.
After qualification of the member for retirement by reason of age. . the
member shall be entitled to receive a retirement allowance based upon the
amount of member's accumulated contributions and service... and on the
employer's contributions held for the member and calculated in the same
manner as for the other members.
Cal Code of Civ. Proc. Sec. 1062 Cumulative remedy
The remedies provided by this chapter are cumulative, and shall not be
construed as restricting any remedy, provisional or otherwise, provided by
law for the benefit of any party to such action, and no judgment under this
chapter shall preclude any party from obtaining additional relief based
upon the same facts.
Cal Code of Civil Proc. Sec. 657 Relief available on motion for new trial,
causes
4. Newly discovered evidence, material for the party making the application
which he could not, with reasonable diligence, have discovered and
produced at the trial.
6. Insufficiency of evidence to justify, .decision or the decision is against
law.
CAL Code of Civ. Proc. Sec. 391
(b) "Vexatious litigant" means a person who does any of the following.
(2) After a litigation has been finally determined against the person,

repeatedly relitigates or attempts to relitigate, in propria persona, either (i)
the validity of the determination against the same defendant • - as to whom
the litigation was finally determined or (ii) the cause of action, claim,
controversy, or any of the issues of fact or law, determined or concluded by
the final determination against the same defendant..
FRAP 60 GROUNDS FOR RELIEF
(b) Grounds for Relief from a Final Judgment, Order, or Proceeding.;
(2) newly discovered evidence that, with reasonable diligence, could not
have been discovered in time to move for a new trial
(4) the judgment is void;
(d) Other Powers to Grant Relief. This rule does not limit a court's power to:
(3) set aside a judgment for fraud on the court.

28 USC Sec. 1654: In all courts of the United States the parties may plead
and conduct their own cases personally or by counsel as, by the rules of
such courts, respectively, are permitted to manage and conduct causes
therein.
Cal Code of Civ. Proc. 170 A judge has the duty to decide any proceeding in
which he or she is not disqualified.
Code Of Conduct For United States Judges
Canon 2: A judge should respect and comply with the law..
28 US Code Sec. 1652 STATE LAWS AS RULES OF DECISION
CANON 2: B. Outside influence. A judge should not allow family, social,
political, financial, or other relationship to influence judicial conduct or
judgment.
(9th Cir. 1992) holding that absent consent, a federal magistrate judge
lacked authority to a post-judgment decision that has dispositive effect..
FIFTH AMENDMENT: No person shall be. .deprived of .. property without
due process of law.

3

CANON 3. (2) A judge should hear and decide matters assigned, unless
disqualified...
5 U.S. Code 706 Scope of review
To the extent necessary to decision and when presented, the reviewing
court shall decide all relevant question of law, interpret constitutional
and statutory provisions, and determine the meaning or applicability of the
(2) hold
terms of an agency action. The reviewing court shall
unlawful and set aside agency action, findings, and conclusions found to
(A) arbitrary, capricious, an abuse of discretion, or
be otherwise not in accordance with law;
(B) contrary to constitutional right, power, privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations or short of
statutory right:
(D) without observance of procedure required by law;
In making the foregoing determination, the court shall review the whole
record or those parts of it cited by a party, and due account shall be taken
of the rule of prejudicial error. (Emphasis added).
A
CANON 3: CALIFORNIA CODE OF JUDICIAL ETHICS:
judge shall hear and decide all matters assigned to the judge except those
in which he or she is disqualified.
Date: July £^£,^021

Respectfully submitted:

-f-

Barroga v. PERS

FACTS

After reaching 50 year old in April 1979 and retirable, I submitted an
application for retirement pensions with the CALIFORNIA PUBLIC EMPLOYEES'
RETIREMENT SYSTEM, PERS for previous services with the City of El Segundo. PERS
offered me two choices: 1) to receive a monthly pension of $135, or 2) as
alternative, to receive a lump sum of my member contributions (approx. 7% of
salaries), but the employer's contributions on my behalf (approx. 7.75% of salaries
under Gov't Code Sec. 20750.1 [new 20795]), will remain with PERS. I received
approximately $10,000 of my accumulated member contributions, with the
employer's contributions on my behalf remaining in deposit with PERS.
. .

Later in some years, I requested that the offered monthly pension shall pay

and redeposit for the withdrawn member contributions as a loan which PERS
maliciously omitted to inform the monthly pension can redeposit per statute (Cal)
Gov't Code Sec. 20750 Redeposit of Withdrawals, and when theJoan or
withdrawal is fully paid with interest, then monthly pension will start to me. But
PERS claimed the employer's contributions which have remained with PERS are
NOT "normal contributions", therefore I ceased to be a member when the
member contributions were withdrawn, and I am not anymore entitled $ny
pension benefits. I have contended that I am still a PERS member, because the
/

employer's contributions on my behalf have remained in deposit with PERS and
are "normal contributions" under the laws, and therefore, l am entitled
retirement benefits.
So, complaints against PERS wirh issues of laws of right to retirement
benefits, since the employer's contributions on my behalf were not paid and still
remain in deposit with PERS, were filed in courts, but courts refused to interpret
the issues. See ISSU ES I, ll. III, IV and V Cal Constitution Article 3 Sec. 6(d) on the p.2-5 MOTION
FOR RELIEF of October 22, 2019, February 8,2020 and on the p.2-5 PETITION FOR REHEARING of March
5, 2021,

ISSUE I: ARE EMPLOYERS' CONTRIBUTION "NORMAL CONTRIBUTIONS"?
(Cal) Gov't Code Sec. 20691. Payment of member normal contributions by
contracting agencies or school employer.
■ ■
Notwithstanding any other provision of law, a contracting agency or school
employer may pay all or a portion of the normal contributions required to be
paid by a member. The payment shall be reported simply as normal
contributions and shall be credited to member accounts.
Cal Gov't Code Sec. 20053 Normal Contributions, p.8 COMPLAINT 5/22/19
(2nd Part) "Normal contributions" also include contributions required to be
paid by a member that are in fact paid on behalf of member by an
employer..
ISSUE II: NONFORFEITURE AFTER QUALIFICATION FOR RETIREMENT
Gov't Code Sec. 21203 (new 21259) Nonforfeiture after qualification for
retirement
Subject to compliance with this part, after a member has qualified as to .
.age and service for retirement for service, nothing shall deprive him or her of
the right to retirement allowance as determined under this part.

ISSUE III: REDEPOSIT OF WITHDRAWALS
(Cal) Gov't Code Sec. 20654 (new 20750) Redeposit of withdrawals, interest.
. .member may file an election with the board to redeposit in the
retirement fund, in lump sum or by installment payment (1) an amount
equal to the accumulated contributions., .withdrawn, and (2) an amount
equal to the interest..
(Cal) Gov't Code Sec. 20211 (new 20202) Natural disaster relief loan.
(Cal) Gov't Code Sec. 20215 (new 20200) Home financing program
ISSUE IV: AMENDMENT 13, PROHIBITION OF SLAVERY
Amendment 13, Section 1. Neither slavery nor involuntary servitude ..
.shall exist within the United States,..
ISSUE V: CALIFORNIA CONSTITUTION PREVAILS OVER 11th AMENDMENT
IMMUNITY
California Constitution Article 3, Sec. 6 (d)
(d) Personal Right of Action and Jurisdiction of Courts.
Any person who is a resident of or doing business in the State of California
shall have standing to sue the State of California to enforce this section,

Date: July £

q

Respectfully submitted:

, 2021

Lucio A. Barroga^

3

/

REASONS FOR GRANTING THE WRIT

Barroga v. PERS

The panel Circuit judges' MEMORANDUM of February 23, 2021 and ORDER of
May 26, 2021 refused to decide and interpret the ISSUES I, II, III. iV, & V Cal
Constitution Article 3, Sec. 6(d) on the p.2-5 MOTION FOR RELIEF FROM ORDER
OF SEPT. 30, 2019. of October 22, 2019, February 8, 2020 and on the p.2-5
PETITION FOR REHEARING of March 5, 2021, in violations of laws:

a) 5 U.S. Code Sec. 706 Scope of review
To the extent necessary to decision and when presented, the reviewing
court shall decide all relevant questions of law, interpret constitutional
and statutory provisions, and. (Emphsis added)
b) Fifth Amendment: No person shall be . .deprived of life, liberty or
property, without due process of law.
PERS argued arbitrarily that I ceased to be a PERS member when the accumulated
member contributions were withdrawn, see letter of Apr 18,1996 by Richard
Koppes, Deputy Executive Officer and General Counsel of PERS, MS APPENDIX,
and I am not anymore entitled retirement benefits. But, laws prove PERS is
wrong. On ISSUE I, Cal Gov't Code Sec. 20691. Payment of member normal
contributions by contracting agencies or school employer and Cal Gov t Code Sec.
20053 Normal Contributions, see p.1-2 AUTHORITIES, show the employer s
contributions remaining in deposit with PERS are "normal contributions ,
therefore I am still a PERS member and entitled retirement benefits. On ISSUE II,

l

Cal Gov't Code Sec. 21259. Nonforfeiture after qualification for retirement,
please see p.2 AUTHORITIES, shows that after reaching 50 years old and qualified
to retire, nothing can deprived me of lifetime allowance. PERS's offering me to
withdraw the accumulated member contributions is fraud. On ISSUE III, Cal Gov t
Code Sec. 20750. Redeposit of withdrawals, see p.2 AUTHORITIES, the law
provides loans can be redeposited in lump sum or installment payment, but in
violation of law, PERS would not accept the withdrawn member contributions as a
loan, and that is discriminatory. On ISSUE IV, AMENDMENT 13, Prohibition of
slavery, see p.3 AUTHORITIES, PERS has denied me benefits derived from the
employer's contributions on my behalf remaining in deposit with PERS, which
employer's contributions I had worked and toiled for. Courts and defendant s
assertion that defendant PERS is immune from suit under Eleventh Amendment
because it is a public agency is prevailed by California Constitution Article 3, Sec.
6(d), see p.3 AUTHORITIES, providing that "Any.. resident .of California has
standing to sue the State of California." Because PERS refused to comply with the
ISSUES of laws and the courts refused to decide and interpret the issues of laws,
ISSUES I, II, III, IV and V of the complaint, there is no basis for the charges of res
judicata or vexatious litigant.

u

The refusal or denial of the panel circuit judges of the MEMORANDUM of Feb.
23, 2021 to interpret the ISSUES of laws is "departed from the accepted and usual
course of judicial proceedings", Rule 10 of Supreme Court of U.S., therefore this
court should grant the petition for writ of certiorari and reverse the
MEMORANDUM of Feb. 23, 2021 and ORDER of May 26, 2021.

Date: July ^,6 2021

Respectfully submitted:

2

